NO.
r

IN THE
SUPREME COURT OF THE UNITED STATES
LUCILLE JACKSON WILLIAMS

PETITIONER

PRO SE

VS.
JOHN EDWARD WILLIAMS

RESPONDENT

PROOF OF SERVICE

I LUCILLE JACKSON WILLIAMS, do swear or declare that on this date, DECEMBER 4, 2020, as
required by SUPREME RULE 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and address of those served are as follows:
VERNE E. DENTINO, 811 W.HIGH STREET PEORIA, ILLINOIS, 61606, PEORIA POST OFFICE,
PEORIA, ILLINOISI declare under penalty of perjury that the foregoing is true and correct.
Executed on 12/4/2020

LUCILLE JACKSON WILLIAMS, PRO SE

12

